la
APPENDIX A—ORDER OF THE UNITED
STATES COURT OF APPEALS FOR THE NINTH
CIRCUIT (November 9, 2020)
No. 19-72626
Tax Ct. No. 6595-19

John Henry Ryskamp,
Appellant
vs.

Commissioner of Internal Revenue
Appellee.
Before: SCHROEDER, HAWKINS, and LEE,
Circuit Judges.
The full court has been advised of the
petition for rehearing en banc and no judge has
requested a vote on whether to rehear the matter
en banc. See Fed. R. App. P. 35.
Ryskamp’s petition for rehearing en banc
(Docket Entry No. 18) is denied.
No further filings will be entertained in this
closed case.

2a
APPENDIX B—MEMORANDUM OF THE
UNITED STATES COURT OF APPEALS FOR
THE NINTH CIRCUIT (August 13, 2020)

No. 19-72626
Tax Ct. No. 6595-19

John Henry Ryskamp,
Appellant
vs.
Commissioner of Internal Revenue,
Appellee.
Appeal from a Decision of the United States Tax
Court
Submitted August 5, 2020
Before: SCHROEDER, HAWKINS, and LEE,
Circuit Judges.
John Henry Ryskamp appeals pro se from
the Tax Court’s order dismissing for lack of subject
matter jurisdiction his petition regarding his tax
liabilities for tax years 2003, 2005, 2006, 2008,
2009, 2010, and 2018. We have jurisdiction under
26 U.S.C. 7482(a)(1). We review de novo the Tax
Court’s dismissal for lack of subject matter

3a
jurisdiction. Gorospe v. Comm’r, 451 F.3d 966, 968
(9th Cir. 2006). We affirm.
The Tax Court properly concluded that it
lacked jurisdiction over Ryskamp’s petition because
the Internal Revenue Service’s Notice LT16 that
formed the basis for Ryskamp’s petition was not a
notice of deficiency or a notice of determination.
See 26 U.S.C. 6212 (notice of deficiency))' 26 U.S.C.
6330 (notice of determination); Gorospe, 451 F.3d
at 968 (the Tax Court is a court of limited
jurisdiction, and its subject matter jurisdiction is
defined by Title 26 of the United States Code).
Contrary to Ryskamp’s contention, his substantive
due process arguments do not confer jurisdiction on
the Tax Court.
We reject as unsupported by the record
Ryskamp’s contention that the Tax Court was
biased against him.
The Commissioner’s motion for sanctions in
the amount of $8,000 (Docket Entry 7 No. 10) is
granted. See Fed. R. App. P. 38; Grimes v. Comm’r,
806 F.2d 1451, 1454 (9th Cir. 1986) (“Sanctions are
appropriate when the result of an appeal is obvious
and the arguments are wholly without merit.”)
AFFIRMED.

4a
APPENDIX C—ORDER AND ORDER OF
DISMISSAL FOR LACK OF JURSIDICTION OF
THE UNITED STATES TAX COURT (August 1,
2019)
UNITED STATES TAX COURT
WASHINGTON, DC 20217
JOHN RYSKAMP,
Petitioner,
v.
COMMISSIONER OF INTERNAL REVENUE,
Respondent
ORDER AND ORDER OF DISMISSAL FOR LACK
OF JURSIDICTION
On April 22, 2019, petitioner filed a petition
with the Court indicating he was challenging a
notice of determination concerning collection action
for taxable years 2003, 2005, 2006, 2008, 2009,
2010, and 2018. Attached to the petition is an
Internal Revenue Service (IRS) Notice LT16, dated
April 15, 2019, informing petitioner that he has
failed to pay taxes due for the years listed in the
petition and requesting that he contact the IRS to
discuss his account. In the petition, petitioner
states, among other things, that: “The asserted
amounts due, and section 6330, are violations of
protected speech under the First Amendment,
pursuant to Janus v. AFSCME.”
On June 7, 2019, petitioner filed a Motion
For Summary Judgment, therein stating, among
other things: “The tax system of the United States
is unconstitutional under Janus v. AFSCME
because it is unconstitutionally compelled speech.”

5a
On June 11, 2019, respondent filed a Motion
to Dismiss for Lack of Jurisdiction and To Impose a
In the motion
Penalty Under I.R.C. 6673.
respondent requests the Court to dismiss this case
on the grounds that no notice of deficiency, notice of
determination, or any other notice was issued to
petitioner for taxable years 2003, 2006, 2008, 2009,
2010, and 2018 that would confer jurisdiction upon
the Court.
On June 13, 2019, petitioner filed an
Objection to respondent’s motion asserting, among
other things, that under Janus: (l) “the former
legal notions of what constitutes permissible notice
in order to gain jurisdiction in the Tax
Court,...are...thrown out the window”, and (2)
taxation is now unconstitutional on the basis of
protected speech under the First Amendment.”
On July 15, 2019, respondent filed a Reply to
petitioner’s
objection
addressing petitioner’s
assertions regarding Janus v. Amendment Federal
of State, County, & Municipal Employees, Council
31, 138 S. Ct. 2448 (2018). On July 17, 2019
petitioner filed a Response to respondent’s reply
reiterating his prior arguments and asserting that
the Tax Court is also “unconstitutional.”
The Tax Court is a court of limited
jurisdiction. It may therefore exercises jurisdiction
only to the extent expressly provided by statute.
Breman v. Commisioner, 66 T.C. 61, 66 (1976). It
is well settled that in a collection review action this
Court’s jurisdiction under sections 6320 and 6330
depends, in part, on the issuance of a notice of
determination by the IRS Appeals Office after the
taxpayer has requested an administrative hearing
following the issuance by the IRS Collection
Division of either a final notice of intent to levy or a
notice of filing of Federal tax lien. See secs. 330(a);

6a
McNeill v. Commissioner, 148 T.C. 481, 487-488 (217); Sarrell v. Commissioner, 117 T.C. 122, 125
(2001); Moorhous v. Commissioner, 116 T.C. 263,
269 (2001); Offiler v. Commissioner, 114 T.C. 492,
498 (2000); see also Rule 330(b).
Petitioner has previously filed petitions
allegedly challenging IRS notices for the taxable
years at issue in this case, as follows^ a notice off
determination concerning collection action for the
taxable years 2003, 2005, 2006, 2008, and 2009 at
docket No. 13681-11L; a notice of deficiency for
taxable year 2010 at docket No. 8888-13; a notice of
determination concerning collection action for
taxable years 2003, 2005, 2006, 2009, and 2010 at
docket No. 206-28-17; and a notice of determination
concerning collection action for taxable year 2018
at docket No. 3899-18. Except in very limited
situations, none of which has been shown to apply
here, this Court lacks jurisdiction over a proceeding
once a decision or dismissal for lack of jurisdiction
becomes final within the meaning of section 7481.
See sec. 6214(d); Stewart v. Commissioner, 127
T.C. 109, 112 (2006); Rice v. Commissioner, T.C.
Memo 2006-236.
As to any other potential basis for an action
here, the record is equally bereft of any evidence or
suggestion that respondent has at any time issued
any other relevant notice of deficiency or
determination for the taxable years 2003, 2005,
2006, 2008, 2009, 2010, and 2018—the years
disputed in the petition—that would confer
jurisdiction on this Court. Suffice it to say that IRS
Notice LT16, the only type of alleged notice ever
supplied by the petition, neither constitutes, nor
can substitute for, a notice of deficiency issued
pursuant to section 6212, a notice of determination
issued pursuant to sections 6320 and/or6330, or

7a
any other narrow class of specified determinations
by the IRS that can open the door to the Tax Court
as of the date the petition was filed. Consequently,
it is clear that the Court does not have jurisdiction
in this case.
Respondent also moves for the imposition of
a penalty on petitioner pursuant to section
6673(a)(1). Section 6673(a)(1) authorizes the Tax
Court to require a taxpayer to pay to the United
States a penalty not in excess of $25,000 whenever
it appears that proceedings have been instituted or
maintained primarily for delay or that the
taxpayer’s position in such proceeding is frivolous
or groundless. Indeed, this proceeding is only the
latest in a series of cases docketed by petitioner. In
docket Nos. 8888-13 and 380-18, petitioner was
arned regarding the imposition of a penalty under
section 6673. Most recently in docket No. 3899-18,
petitioner filed a petition challenging a notice of
determination concerning collection action for
taxable year 2018 and attached thereto a letter
from the IRS responding to petitioner’s request for
the
IRS’s
withholding
information
about
Compliance Program. The case at docket No. 389918 was dismissed for lack of jurisdiction and the
Court advised petitioner of the invalidity of his
arguments and imposed a penalty under section
6673 of $1,000. The case docket No. 20628-17 was
filed on the basis of a Notice LT16, the same notice
that forms the basis of this case, and was dismissed
for lack of jurisdiction on April 27, 2018. Now
petitioner has returned again to this forum offering
contentions of a similar ilk. Section 6673(a) was
designed to deter precisely such frivolity and waste
of judicial resources.
Accordingly, upon due consideration and for
cause, it is

8a
ORDERED that respondent’s Motion To
Dismiss for Lack of Jurisdiction and To Impose a
Penalty Under I.R.C. 6673, filed June 11, 2019, is
granted. It is further
ORDERED that petitioner’s Motion for
Summary Judgment, filed June 7, 2019, is denied
as moot. It is further
ODERED AND DECIDED that petitioner is
liable for a penalty to be paid to the United States
pursuant to Section 6673(a)(1) in the amount of
$2,000.
(Signed) Peter J. Panuthos
Special Trial Judge
ENTERED: AUG 1 2019

